<html>
<title> - SENATE BUDGET COMMITTEE HOUSING ROUNDTABLE: EXAMING FEDERAL HOUSING ASSISTANCE PROGRAMS</title>
<body><pre>[Senate Hearing 116-453]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 116-453
 
  SENATE BUDGET COMMITTEE HOUSING ROUNDTABLE: EXAMING FEDERAL HOUSING 
                          ASSISTANCE PROGRAMS

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

                        COMMITTEE ON THE BUDGET

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 16, 2020

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



           
               U.S. GOVERNMENT PUBLISHING OFFICE 
44-022                  WASHINGTON : 2021 
                                     
                                     

                        COMMITTEE ON THE BUDGET

                   MICHAEL B. ENZI, Wyoming, Chairman
CHARLES E. GRASSLEY, Iowa            BERNARD SANDERS, Vermont
MIKE CRAPO, Idaho                    PATTY MURRAY, Washington
LINDSEY O. GRAHAM, South Carolina    RON WYDEN, Oregon
PATRICK TOOMEY, Pennsylvania         DEBBIE STABENOW, Michigan
RON JOHNSON, Wisconsin               SHELDON WHITEHOUSE, Rhode Island
DAVID A. PERDUE, Georgia             MARK R. WARNER, Virginia
MIKE BRAUN, Indiana                  JEFF MERKLEY, Oregon
RICK SCOTT, Florida                  TIM KAINE, Virginia
JOHN KENNEDY, Louisiana              CHRIS VAN HOLLEN, Maryland
KEVIN CRAMER, North Dakota           KAMALA D. HARRIS, California
                 Doug Dziak, Republican Staff Director
                Warren Gunnels, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              

                     WEDNESDAY, SEPTEMBER 16, 2020

                                                                   Page

                    STATEMENTS BY COMMITTEE MEMBERS

Chairman Michael B. Enzi.........................................     1
Senator Chris Van Hollen.........................................     4

                               WITNESSES

Garcia-Diaz, Daniel, Managing Director, Financial Markets and 
  Community Investment Team, U.S. Government Accountability 
  Office (GAO)...................................................     7
    Prepared Statement of Mr. Daniel Garcia-Diaz.................     9
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................    73
        Senator Charles E. Grassley..............................    76
        Senator Mike Crapo.......................................    80

Olsen, Edgar, Professor of Economics and Public Policy, 
  University of Virginia (UVA)...................................    15
    Prepared Statement of Mr. Edgar Olsen........................    17
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................    83
        Senator Charles E. Grassley..............................    87
        Senator Mike Crapo.......................................    91

Yentel, Diane, President and Chief Executive Officer, National 
  Low Income Housing Coalition (NLIHC)...........................    35
    Prepared Statement of Ms. Diane Yentel.......................    37
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................    94


 SENATE BUDGET COMMITTEE HOUSING ROUNDTABLE: EXAMINING FEDERAL HOUSING 
                          ASSISTANCE PROGRAMS

                              ----------                              - 



                     WEDNESDAY, SEPTEMBER 16, 2020

                                       U.S. Senate,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
Room 608, Dirksen Senate Office Building, Hon. Michael B. Enzi, 
Chairman of the Committee, presiding.
    Present: Senators Enzi, Grassley, Crapo, Braun, Scott, 
Kaine, and Van Hollen.
    Staff Present: Doug Dziak, Republican Staff Director; and 
Alex Beaton, Minority Policy Advisor.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. I will go ahead and call this meeting to 
order. Welcome to this roundtable. This is a topic where 
Senator Sanders and I probably have a lot of agreement. Senator 
Mikulski and I had success working some of these housing 
issues.
    I have worked on more and better housing for people since 
1975. I was mayor of a small boomtown. We were already impacted 
by oil development, but that was to be nothing compared to the 
power plant construction and the opening of 14 coal mines, one 
of which would turn out to be the world's largest producing 
coal mine.
    It takes people to do those things, and people need 
housing. I also found that once people had a home, they were 
ever more concerned about, and involved in their community. I 
worked to get affordable housing. I did a city plan that called 
for a mix of housing types in all the neighborhoods. The mix 
was more important before everyone had air conditioning, 
because people used to sit on the porch and visit with 
neighbors. There was more knowledge and understanding of 
neighbors.
    I did get companies to voluntarily even dig a channel 
through the community in order to change the 100-year flood 
plain, so houses could be built in logical places. I got 
companies to actually build a mix of housing. Wyoming 
recognized the housing problem and started the Wyoming 
Community Development Authority, whose primary instruction was 
to provide financing for first-time home buyers. People camped 
out at the offices in order to be early in the line, expecting 
the money would run out. It did, but it was quickly replenished 
because it was making a difference.
    When I was in the Wyoming legislature I participated in 
building Habitat for Humanity houses. I want you to know I am a 
great left-handed hammerer. There are some places where a 
right-handed hammerer almost has to be upside down to get at 
it. I was not just there for the photo opportunity, and later, 
because of Wyoming wind, campaign signs have to have particle 
board backing. Some of my signs are now donated parts of the 
subflooring in Habitat houses.
    Since coming to the Senate, I have been able to raise my 
interest to a new level, but I am appalled at how little 
progress we have made. We appear to be an employment agency for 
thousands of Federal workers. Competing regulations, 
duplication, and turf protection keeps people from homes. Our 
goal is not to have more in Federal employees. It is to get 
housing and homes for the millions.
    I visited one agency and found some people proofreading 
copies of documents. I asked how they correct the original if 
they found a mistake. They told me they did not have to worry 
about that because they seldom found a mistake. Put that effort 
in the category of wasted time, and it does not say much for 
management either.
    I have also discovered we are paying off thousands of 
housing units but the people we want to help do not get them 
when it is paid for. They get no ownership, and neither does 
the Federal Government. Yes, we subsidize construction and we 
pay off properties that then belong to the developer.
    A friend of mine, Pat Goggles of the Arapaho Tribe, used a 
gym on the reservation to put on a housing open house for 
Tribal members. There were several booths set up to teach and 
explain how to buy a house, care for it, handle emergencies, 
and pay for it. The first stop, though, was to get help filling 
out a housing loan application. He and I were both surprised to 
find that two-thirds of the families who came qualified for a 
home loan.
    The booths also had videos on the housing purchase process. 
Most importantly, trained staff were there to help figure out 
what programs would work best. I have been pleased at some of 
the unique efforts separate from Congress and the Federal 
Government.
    We have built a bureaucracy of 160 overlapping housing 
programs at a time when we need to change the focus to getting 
people into housing. One hundred sixty programs, administered 
by 20 different Federal agencies. I am pretty certain no 
Senator has looked at the details of those 160 programs. I even 
doubt that staff has. I asked the entities themselves to look 
at duplication. This probably will not surprise you. Each 
entity reported back that there is no duplication in their 
jurisdiction.
    I think that helps us to see the problem. Every agency 
wants the joy of talking to people about the potential for 
housing. We do not need talk. We need action. We need 
management and coordination. We need to resolve overlaps and 
confusion.
    I want to thank the Government Accountability Office, GAO, 
for all their work through the years. I hope the current 
document is not another effort that will just gather dust. It 
now requires some detailed work by several committees, which is 
where we run into the jurisdictional issues.
    At one time, Senator Kennedy and I were looking at 
preschool children's education programs, and we found 145 
different preschool--well, they were not different. Many had 
changed from education to babysitting. We got that number down 
to 45. You know why it was not less? Many of them were not in 
our jurisdiction, and that is a problem with housing as well.
    Today's Budget Committee roundtable purpose is to examine 
Federal housing assistance programs. The goal of this 
roundtable is to understand how housing assistance is 
delivered, and more importantly, how we can improve it. Rather 
than structure this as a hearing, which in my experience 
results in less learning on our part and more political points 
being made, I have structured this discussion as a roundtable.
    A roundtable is designed to gather information, to allow 
witnesses and members to engage in thoughtful conversation, and 
hopefully identify some solutions to the specific problems. 
This works a little different than a regular hearing. After the 
opening statements and then the witness statements we will ask 
some questions, but rather than a question just being directed 
to one witness, other witnesses can comment. Given that all of 
our witnesses are appearing by video, I would ask that they 
raise their hand if they want to speak, when a topic comes up.
    Hopefully, as a result, we will come away with many ideas, 
and that has been my experience with roundtables.
    I would like to welcome the three experts joining us today, 
Daniel Garcia-Diaz of the Government Accountability Office, 
GAO; Professor Edgar Olsen of the University of Virginia; and 
Diane Yentel, the President and Chief Executive Officer of the 
National Low Income Housing Coalition. Thank you all for 
joining us. I look forward to your testimony.
    We can come together at a difficult time for our nation. A 
global pandemic has sent shockwaves through our economy. It has 
caused businesses to shutter and it has caused jobs to be lost. 
Against this backdrop, the Federal Government's current 
approach to housing assistance is falling short in many ways. 
As Congress considers additional measures to address housing 
needs in the wake of COVID, it is worth reviewing the current 
state of Federal housing programs and seeing what works and 
what does not, so that we can better determine what form those 
measures should take.
    I know some would disagree. Critics may argue that working 
to reform the system could hurt certain constituencies, but 
that is not what we are about. And usually if we get into the 
details, those can be solved. But the Federal housing system is 
already failing. People are being left out.
    Today the Federal Government spends more than $50 billion 
per year on low-income housing assistance programs. It also 
guarantees $2 trillion in home loans, and it provides billions 
more in assistance through the tax code. Is that money 
achieving its intended purpose?
    We can do better. We better do better. With half a million 
people homeless, and given the significant amount we spend, 
there are still years-long waiting lists for public housing. 
Studies have shown that public housing and project-based 
programs can trap families in high poverty neighborhoods, which 
has significant long-term consequences for both their health 
and their well-being.
    And programs are scattered across agencies, creating 
confusion and significant challenges for those seeking 
assistance. Federal housing bureaucracies have grown so large 
that they are now failing those they should be serving. Most 
Americans do not even know the full extent of the programs 
available or where they can go for help.
    Critics may also argue that Federal housing programs cannot 
be one size fits all, but in a 2012 report, GAO found housing 
assistance is fragmented across the 160 programs I mentioned, 
with significant areas of duplication and overlap. One size 
fits all may not be the answer but serving the need should not 
take 160 programs.
    The GAO report also found that of those 160 programs, 39 
helped with buying, selling, or financing a home. That is some 
duplication! Twenty-five provided assistance for financing 
rental housing and eight provided assistance for rental 
property owners. How many places do you have to go and ask 
questions to see if you qualify and to get answers? The report 
found that significant overlap existed in the assistance 
offered, the service delivered, and even the areas served.
    Finally, the report said opportunities existed to increase 
collaboration and potentially realize efficiencies. Mr. Garcia-
Diaz, I look forward to hearing GAO's update today. I think the 
issue comes down to a simple question: If given the amount of 
resources the Federal Government puts into Federal housing 
assistance programs each year and setting aside interest groups 
that may profit from the status quo, would we ever design a 
system with 160 programs?
    With programs scattered across multiple Federal agencies, 
the system leads to overlap and waste and actually limits 
resources that should be going to those in need. We need to get 
the money to the people.
    I hope this is the start of a serious bipartisan review to 
find improvements to the system. That is why we are here, to 
identify solutions and gather ideas about reform and to discuss 
how to make these programs work better for those who truly need 
them.
    Thank you again to the panelists for joining us. I welcome 
your insights and look forward to them, as we work together to 
find common solutions to these challenges.
    With that I now recognize Senator Van Hollen, standing in 
for the Ranking Member, for his opening statement. Senator?

         OPENING STATEMENT OF SENATOR CHRIS VAN HOLLEN

    Senator Van Hollen. Well, thank you, Mr. Chairman, and 
thank you for holding this hearing. Thank you for your efforts 
both in the Senate and previously as mayor, on affordable 
housing. And I know that the Ranking Member joins me in 
agreeing with you that to the extent that we can find 
efficiencies in our current Federal housing programs we should 
do so. We want to make sure that the resources being provided 
travel just as far as they can go, in terms of achieving the 
goal of affordable housing.
    I think it is also fair to say, I think there would be 
broad agreement on this, that even if we squeezed every dollar 
of efficiency out of the current system, we are still going to 
have an affordable housing crisis in the United States of 
America. That is, of course, very acute right now during the 
pandemic, as you mentioned, and I am going to say a word about 
that in a moment.
    But as you indicated, that affordable housing crisis 
actually predates the pandemic. In fact, in the United States 
today there are over 18 million families paying more than half 
of their limited income toward housing. That leaves very little 
for other essentials like food and transportation and health 
care, much less the ability to put aside and sock away a little 
bit for getting ahead and making other important investments.
    In fact, the numbers show that there is no State, no 
metropolitan area or county in this country where a minimum 
wage worker putting in 40 hours a week can afford a modest two-
bedroom apartment. And if you are working 40 hours a week, I 
think most of us agree you should be able to have enough to 
have a safe and affordable place in which to raise your family.
    Meanwhile, as you said, Mr. Chairman, we have over half a 
million Americans homeless on any given night, and many of 
these are working families with children, many are veterans and 
others have mental illness.
    And so the resources we provide are important. 
Unfortunately, if you look at this administration's budget--and 
these are just facts, not political rhetoric--we see deep cuts 
proposed. In fact, if you look at the most recent Trump 
administration budget they ask for $100 billion in cuts to 
housing assistance and proposed eliminating the National 
Housing Trust Fund and other programs to build and preserve 
affordable housing. It would also end funding for public 
housing repairs that are desperately needed.
    Now I am pleased to report that the Congress, on a 
bipartisan basis, has rejected those proposed cuts, but I dare 
say that even if we were to squeeze every dollar of efficiency 
out of the program those cuts would still have a huge damaging 
impact, the $100 billion proposed cuts.
    And so we have got to also address the shortage in housing 
for lowest-income families. Right now there is a shortage of 
about 7.5 million homes in the country. And that is all just 
before the pandemic hit. We now know that Americans are 
experiencing economic hardships we have not witnessed, since 
the Great Depression of the 1930s. Americans have lost their 
jobs, their health insurance, and depleted their savings. Many 
were able to make ends meet and pay some of the bills with the 
additional $600 a week in unemployment benefits through the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act, but 
the Senate did not extend those provisions as the House, Health 
and Economic Recovery Omnibus Emergency Solutions (HEROES) Act 
would have done.
    And, in fact, just last week, nearly one-quarter of renters 
had missed their September rent payments. Let me say that 
again. A quarter of all renters missed their September rent 
payments. That is the highest rate since the beginning of the 
pandemic. And according to a Census Bureau survey, 42 percent 
of blacks and 49 percent of Latino renters have little or no 
confidence that they are going to be able to pay their next 
month's rent on time.
    According to Moody's Analytics, renters already owe an 
estimated $25 billion in back rent, which could grow to $70 
billion by the end of the year.
    Meanwhile, public health experts continue to tell us that 
safe and stable housing is vital to combat COVID-19. Not only 
is it essential for people to have a place to stay and 
quarantine if they are exposed but the homeless are 
particularly vulnerable to this disease.
    Now the Centers for Disease Control has put in place a 
moratorium. It is not exactly clear how that will apply. But if 
it does not fully apply or no matter what, at the end of the 
day, if we do not provide more in terms of renter assistance, 
we are going to have 30 or 40 million American households 
facing eviction, because it will simply be pushing their 
payments down the road and they will have balloon payments due. 
And so the estimate is that if we do not do something on the 
rental assistance front that 30 to 40 million Americans will be 
at risk of eviction.
    That is why, in the Senate, many of us have proposed an 
Emergency Rental Assistance Act. That is why an emergency 
rental assistance to the tune of about $150 billion is provided 
for in the House HEROES Act. Some of those funds could also be 
used to support mortgages, where people have lost their jobs 
because of COVID-19.
    So, Mr. Chairman, we agree with you that affordable housing 
is a critical area of inquiry. In fact, it is an emergency now. 
We have gone from what was bad to even worse. And we join you 
in looking for efficiencies in the existing programs. But I 
think we should also all recognize that if we are really going 
to tackle this issue it will require not just restructuring and 
reform but additional Federal resources.
    And so we thank you for bringing us together. We hope we 
can come together as a Senate and vote on the emergency rental 
assistance provisions, which are going to be so necessary to 
prevent mass evictions in the United States.
    So thank you, and I look forward to the testimony.
    Chairman Enzi. Thank you, Senator Van Hollen. I would now 
like to introduce our panel and invite each of them to give 
about a 5-minute statement, and then we will ask some 
questions.
    Our first witness is Daniel Garcia-Diaz. He is a Managing 
Director in Financial Markets and Community Investment Team at 
the Government Accountability Office. Since joining GAO more 
than 20 years ago, he has led reviews of assistance to 
homeowners and renters, to mortgage finance programs, and to 
housing for the special needs population. Mr. Garcia-Diaz, I 
thank you for joining us today. I appreciate the GAO's work on 
this issue.
    Next I would like to welcome Dr. Edgar Olsen, who is a 
Professor of Economics and Public Policy at the University of 
Virginia. He is an expert in low-income housing policy and has 
published numerous papers. Dr. Olsen has been a consultant in 
the U.S. Department of Housing and Urban Development (HUD) with 
six different administrations. He has also been a visiting 
scholar at HUD and the American Enterprise Institute. Professor 
Olsen has testified before Congress on several occasions, and I 
am pleased to welcome him.
    Our third witness is Diane Yentel. She is the President and 
Chief Executive Officer of the National Low Income Housing 
Coalition. Ms. Yentel has previously worked on affordable 
housing and community development issues at Enterprise 
Community Partners, at HUD, at Oxfam America, and at the 
Massachusetts Coalition for the Homeless.
    I want to thank all three of you for joining us today to 
share your expertise. With that we will now hear your 
testimony. Mr. Garcia-Diaz, please begin.

 STATEMENT OF DANIEL GARCIA-DIAZ, MANAGING DIRECTOR, FINANCIAL 
    MARKETS AND COMMUNITY INVESTMENT TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Garcia-Diaz. Thank you Chairman Enzi, Ranking Member 
Sanders, Senator Van Hollen, and members of the Committee. 
Thank you for the opportunity to be here today at this 
roundtable on Federal housing assistance programs.
    Over the years, GAO has issued a body of work examining 
these programs. As you know, the government's system of housing 
programs, tax expenditures, and other tools is exceedingly 
complex and fragmented. These programs and activities support a 
range of efforts such as subsidizing housing construction, 
paying for rental assistance, and offering mortgage financing, 
and enforcing fair housing and other regulations.
    The work undertaken by these agencies is critical. As you 
know, safe and decent housing in good neighborhoods is an 
important part of promoting opportunities for low-income 
families. Yet the Federal Government reached about 30 percent 
of very low income families who could qualify for rental 
assistance. Long wait lists for public housing and voucher 
assistance are a chronic problem across many communities. In 
our 2020 report, we found that affordability has declined for a 
variety of reasons, including that the supply of low-cost 
rental units has not kept up with demand, more renters 
competing for the same units, and income not keeping up with 
housing costs. As we have noted in our CARES Act work, the 
economic disruption resulting from COVID-19 will add 
considerable challenges in keeping families in stable housing.
    Our work has identified opportunities for consolidating 
agencies and program activities to reduce program costs, 
increase efficiency, and hopefully expand access to affordable 
housing, although many of these options come with tradeoffs 
that would need to be considered.
    For example, we reported that Rural Housing Service (RHS) 
and U.S. Department of Agriculture (USDA) and Federal Housing 
Administration's (FHA) single family loan guarantee programs 
overlap in terms of income, location, and borrower 
qualifications. Significant percentages of RHS and FHA 
borrowers could have met criteria for the other program. 
Merging programs into a single program, however, would pose 
tradeoffs because of differences in borrower costs and 
financial risk of RHS and FHA loans.
    We have also commented on consolidating local housing 
agencies. HUD expends considerable resources of overseeing 
small local agencies which administer a fraction of public 
housing and voucher units. Further, HUD research has found that 
larger housing agencies' average cost of administering vouchers 
tend to be around 20 percent less than smaller ones. 
Consolidating smaller agencies or greater use of consortiums 
may reduce costs, improve program economy and scales, and 
provide benefits to assisted families.
    We also have noted opportunities to merge and streamline 
administrative functions. Merging wait lists, simplified 
voucher portability rules could improve access to better 
neighborhoods and potentially reduce overall administrative 
costs.
    In addition to program consolidation we have identified 
other opportunities to address fragmentation and overlap. For 
example, we have called for continued evaluation of program 
costs to identify more cost-effective approaches. For example, 
our research, as well as those of others, have found that 
vouchers are more cost effective in providing housing 
assistance than programs that build housing. Additionally, in 
2018, we found that improved data collection and reporting in 
the Low-Income Housing Tax Credit program could improve program 
evaluation efforts, help identify opportunities for cost 
savings, and strengthen efforts to deter fraud.
    We have also called for greater interagency collaboration. 
Inefficiency can arise when a subsidized property has multiple 
layers of Federal assistance. We have reported that 
implementing different physical inspection, tenant income 
reporting, and financial reporting requirements for the same 
property can create regulatory burden. Interagency efforts to 
harmonize those requirements across programs may reduce 
duplicative actions and reduce costs. And some progress has 
been made in this area, but it is uncertain the extent to which 
these efforts have been sustained.
    In closing, the housing needs of lower-income families are 
significant, and the Federal Government only reaches a small 
fraction of that need. Examining how the Federal Government 
provides housing assistance can open up opportunities to serve 
additional needy families. Further, in examining how the 
government delivers assistance, attention needs to be paid in 
improving service delivery to and support of these families who 
must navigate through this complex system. Also, property 
owners and State and local partners who help deliver Federal 
assistance stand to benefit from more streamlined and 
compatible requirements across programs.
    This concludes my opening remarks and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Garcia-Diaz follows:]

             Prepared Statement of Mr. Daniel Garcia-Diaz 
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             
    Chairman Enzi. Thank you for your testimony. Dr. Olsen, 
your comments?

  STATEMENT OF EDGAR OLSEN, PhD., PROFESSOR OF ECONOMICS AND 
             PUBLIC POLICY, UNIVERSITY OF VIRGINIA

    Mr. Olsen. I am delighted to be here today to share with 
you and the members of your Committee what I know about the 
performance of low-income housing programs, and some ideas 
about how to get better outcomes from the money spent on them.
    Low-income housing assistance is fertile ground for reforms 
that would provide better outcomes for the money spent. Most 
current recipients are served by programs whose cost is 
enormously excessive for the housing provided. Phasing out 
these programs in favor of the system's most cost-effective 
program would ultimately free up the resources to provide 
housing assistance to millions of additional people, without 
any increase in taxes.
    The second major defect of the current system is its 
failure to offer housing assistance to most of the poorest 
people. About two-thirds of families with extremely low incomes 
receive no housing assistance, while others with the same 
incomes receive large subsidies. Offering modest assistance to 
all of these families would not only eliminate this inequity 
but it would also largely end homelessness and evictions.
    The path to remedying these defects at a reasonable cost to 
taxpayers is to phase out cost-ineffective programs in favor of 
the cost-effective housing voucher program. This would 
enormously simplify the system of low-income housing 
assistance.
    In papers for American Enterprise Institute (AEI) and 
Brookings, I have suggested steps that would provide a smooth 
transition to a system that would offer housing assistance to 
all the poorest households. They deal with all parts of the 
current system: active construction programs, existing 
privately owned housing projects, public housing, and the 
housing voucher program itself.
    The desirability of the proposed reforms does not depend on 
how much is spent on low-income housing assistance. If more 
money is spent, more families will be helped, and the families 
assisted will receive larger benefits.
    Today most low-income housing assistance in the U.S. is 
delivered by subsidizing the construction, renovation, and 
operation of housing projects. The Low-Income Housing Tax 
Credit Program is the largest and fastest growing program of 
this type.
    Tax credit projects have a much greater cost than most 
people realize. They receive subsidies from many sources. 
Considerable resources are devoted to getting these subsidies 
and trying to enforce their restrictions. And the layering of 
subsidies from multiple sources enables the building of very 
expensive units. The development costs of units in tax credit 
projects is about equal to the median value of owner-occupied 
houses in the same locality.
    This complexity is totally unnecessary to achieve the 
purposes of low-income housing assistance, and it is one reason 
for the program's excessive cost. The simplest approach to 
providing housing assistance is to provide a subsidy to the 
people we want to help, that is conditional on occupying 
housing meeting certain standards. HUD's Housing Choice Voucher 
Program does that. This simple method can be used to subsidize 
homeowners as well as renters, and it can be combined easily 
with down payment assistance to induce more recipients to be 
homeowners.
    This is not only the simplest approach but also by far the 
most cost-effective. We do not need to build subsidized housing 
projects to solve a housing affordability problem. All people 
who spend a high fraction of their income on housing are 
housed. The least expensive way to reduce how much they spend 
on housing is to pay a part of their rent. A housing voucher 
program does that. Building new housing for these households 
and charging them the same rents as they would pay under the 
housing voucher program is much more expensive.
    Furthermore, it is neither necessary nor desirable to 
construct new units to house the homeless. The number of people 
who are homeless is far less than the number of vacant rental 
units. In the entire country there are only about 600,000 
homeless people on a single night, and more than 3 million 
vacant units available for rent. Even if all homeless people 
were single, they could be easily accommodated in vacant 
existing units, and that would be much less expensive than 
building new units for them. The reason they are homeless is 
they do not have the money to pay the rent for an existing 
vacant unit.
    A modest housing voucher would solve that problem. It would 
also prevent evictions for financial reasons. If a voucher 
recipient loses income, the subsidy is increased to offset the 
loss.
    I look forward to your questions about these important 
issues.
    [The prepared statement of Mr. Olsen follows:]

                 Prepared Statement of Mr. Edgar Olsen 
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                 
    Chairman Enzi. Thank you for that summary of your 
testimony. Ms. Yentel?

   STATEMENT OF DIANE YENTEL, PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, NATIONAL LOW INCOME HOUSING COALITION

    Ms. Yentel. Thank you, Chairman Enzi and Senator Van Hollen 
for the opportunity to be here today. NLIHC supports some 
efforts to realign, streamline, and coordinate Federal housing 
programs, including many highlighted by Mr. Garcia-Diaz in his 
oral testimony.
    But let us be clear. Consolidation or cutting funding is 
not the solution to the housing and homelessness crisis. What 
is most urgently needed is increased investments in solutions 
that are woefully underfunded.
    Even before the pandemic, the country was in the grips of a 
pervasive affordable housing crisis. Nearly 8 million of our 
nation's lowest-income households are severely cost burdened, 
spending more than half of their limited incomes on rent and 
leaving very little else for other basic needs. More than half 
a million people experience homelessness on any given night.
    Because Federal investments are chronically underfunded, 
just one in four eligible households receives rental 
assistance. Decades of structural racism create deep racial 
disparities in housing and homelessness. Black and brown people 
are disproportionately likely to rent their homes, to be very 
low income, to be rent-burdened, and to be homeless.
    The housing crisis is most acute for extremely low-income 
households. Nationally, there is a shortage of 7 million rental 
homes affordable and available to them. Put another way, for 
every 10 of the lowest-income renters there are fewer than four 
apartments affordable and available to them. There is no State 
with enough affordable, available rental homes for its lowest-
income residents.
    Without affordable options, most of these renters live in 
housing they cannot afford, spending well over half of their 
limited income on rent, or doubling or tripling up in 
overcrowded housing. In worst cases, they become homeless, 
sleeping in cars, in homeless shelters, or on sidewalks.
    The fundamental problem creating the affordable housing 
crisis is a mismatch between what people earn and what rent 
costs. Since 1960, renters' incomes increased by 5 percent 
while rents rose 61 percent.
    There is also market failure and chronic underfunding of 
solutions. Without Federal subsidies, affordable homes cannot 
be built and operated at a price that the very lowest-income 
people can afford. Despite the urgent need, Federal funding for 
housing subsidies has not kept pace, and for many programs has 
precipitously declined over the last decade.
    The pandemic has exacerbated the housing crisis. To make 
rent after having lost jobs or hours at work, millions of 
families are increasingly paying rent with credit cards or 
other borrowed money, or they are foregoing other necessities 
like store-bought food, relying on food banks instead, or 
skipping important medication to cut corners and save money. 
Many renters are falling behind on rent, accruing debt that 
they will not be able to pay off.
    The Center for Disease Control and Prevention's (CDC) 
eviction moratorium extends vital protections to renters at 
risk of eviction, but while this action is long overdue and 
badly needed, it is a half measure that postpones but does not 
prevent evictions for the up to 30 to 40 million people at risk 
of eviction when the moratorium ends and back rent is owed.
    To protect these households and avoid a massive wave of 
evictions, Congress and the White House must pass a relief 
package that includes essential resources and protections that 
were included in the HEROES Act that passed 4 months ago in the 
House: a nationally uniform moratorium on all evictions for 
nonpayment of rent for the duration of the pandemic; at least 
$100 billion in emergency rental assistance; and $11.5 billion 
to prevent outbreaks among people experiencing homelessness and 
to get them quickly housed.
    The stakes could not be higher. Evictions risk lives. They 
drive families deeper into poverty. They burden already 
overstretched hospital systems and they make it harder for us 
as a country to contain the virus. Ensuring that everyone is 
stably housed during the pandemic is not only a moral 
imperative, it is a public health necessity.
    And after Congress stems the tide of evictions it must go 
further and address the underlying causes of the crisis. 
Congress should fund the construction of apartments affordable 
to the lowest-income renters through the National Housing Trust 
Fund. Bridge the gap between what people earn and what rent 
costs through rental assistance like Section 8 vouchers. 
Provide emergency assistance to stabilize families for a 
financial emergency and prevent evictions, and preserve our 
country's existing public housing and other affordable housing 
stock.
    Homelessness and housing poverty is a public policy choice. 
We can choose otherwise if we fund solutions at the scale 
needed. It has never been more clear that housing is health 
care, so let's take this moment not to tinker around the edges 
of housing programs but to expand and fully fund them.
    Thank you again for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Ms. Yentel follows:]

                Prepared Statement of Ms. Diane Yentel 
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
                
    Chairman Enzi. Thank you. I appreciate the comments of all 
of you who have testified. A lot of good information there, and 
additional information in the materials that you submitted, 
which I will encourage other Senators and staff to take a look 
at.
    Now we will turn to questions. Let me take a moment to 
explain the process to the Committee members before we start. I 
will start with some general questions and then Senator Van 
Hollen will follow that, and then other members can have an 
opportunity to question too. We have a process for those who 
are here or online to move to the front of the line and other 
people as they join us.
    For the witnesses, as I mentioned in my opening remarks, 
the purpose of a roundtable is to gather information, so if a 
question is asked and you would like to comment on it, even if 
it was not directed at you, if you would hold your hand up or 
something, the staff here will help me to monitor the thing so 
we can tell who wishes to speak.
    I would also ask anybody participating via video to keep 
themselves on mute until they are speaking. That helps to 
eliminate some interference. We had a problem with that just 
before we opened up.
    So with that I will go ahead and move to questions. The 
first one would be to all three. To frame the discussion and 
put the 2012 GAO report on housing duplication and overlap into 
context and help us solicit ideas from the panel I will start 
with a hypothetical question. If each of you were designing a 
Federal housing assistance program from scratch, would it look 
like the system we have today? If yes, why. If no, what would 
an effective and efficient system actually look like?
    Mr. Garcia-Diaz?
    Mr. Garcia-Diaz. Yes, Mr. Chairman. So from this 
hypothetical I would certainly hope that we have learned plenty 
over the past 80 or 90 years of providing housing assistance 
and that if we were to be designing a new system that it would 
incorporate a lot of those lessons.
    Our work, at least, points to the few areas to consider in 
a new system of housing. One is that housing subsidies, and 
especially housing subsidies targeted to extremely low and low-
income households is very expensive. And the empirical 
evidence, and certainly the work we have done, certainly points 
to tenant-based assistance and vouchers as being a very cost-
effective approach to deliver housing. And so it is by no means 
a perfect solution. It has its own challenges, but it also has 
many advantages from a policy standpoint as well.
    Housing production has been part of the Federal toolkit for 
much of that time. In fact, for a longer period of time. But I 
would hope that we take away a few elements that were lessons 
learned, let's say, from these programs and how they have 
operated in the past. One certainly is to address the cost 
issue and certainly limiting and understanding development 
costs. But the other part--and we see this, for instance, in 
public housing--is planning for future needs and designing 
features, program design features that allow for the funding of 
maintenance and modernization. Historically, the Federal 
Government has struggled to fund reserves, establish mechanisms 
to fund ongoing maintenance and modernization in aging 
property.
    And a related point to that is building, in these 
production programs, a preservation strategy from the get-go. 
The minute the ribbon is cut and the property is opened it is 
starting to deteriorate, and the contracts on the property are 
going to expire at some point, and the use agreement will go 
with it.
    And so having the tools already and the criteria to make 
decisions later on, and the structure to make those decisions 
later on for preservation and the decision to preserve those 
properties are key. And we are seeing today where even after 
all we have learned about preserving properties we have USDA 
and Rural Housing Service about to experience a wave of loans 
maturing and rental systems contracts expiring. And so I would 
hope that it would take some of that into account in the design 
of the program.
    And finally, and very quickly, I would say location 
matters. And so to the extent that programs take into account 
where people are living, concentration of poverty, and linking 
families to good schools and social services I think is key 
moving forward.
    Chairman Enzi. Dr. Olsen, did you want to comment on that?
    Mr. Olsen. Yes. Thank you. So my comment is really very 
simple. The current system is highly inefficient and 
inequitable. Subsidized housing projects are very expensive for 
the housing that they provide. The majority of the poorest 
people receive no housing assistance, and other people with the 
same incomes receive large subsidies.
    So if it were left to my own devices there would be only 
one low-income housing program. It would be a simplified 
version of the current Housing Choice Voucher program that was 
used during the Housing Assistance Supply Experiment. It would 
provide the same assistance on the same terms to renters and 
homeowners who are in the same economic circumstances. Renters 
and homeowners in the same economic circumstances would get the 
same subsidy, under the same terms.
    I personally would offer subsidies less generous than the 
current housing voucher program, but that is not fundamental to 
me. What is fundamental is to offer assistance to all of the 
eligible households. No exceptions.
    Chairman Enzi. Thank you. Ms. Yentel?
    Ms. Yentel. Yes. Thank you. So I am a strong supporter of 
the Section 8 voucher program. It is a proven solution to 
ending homelessness and housing poverty, and I really welcome 
the strong, it appears bipartisan support for the program and 
for, I believe for expanding the program.
    But suggesting that that program be the single housing 
program of the Federal Government, with respect, is a vast 
oversimplification of our country's housing system, of the 
needs throughout the country, and what is truly needed to 
respond to them.
    I do agree that the system that we have today is 
overcomplicated and could be improved. And one of the main 
principles that we believe all housing--really all Federal 
spending should follow is that scarce Federal resources should 
be targeted towards those with the greatest needs. And when it 
comes to housing it is very clear that the greatest needs exist 
among the lowest-income people, extremely low-income people and 
people experiencing homelessness.
    So the more we can realign Federal housing programs to meet 
the needs of those extremely low-income renters, the better the 
Federal dollars will be used. And I think a good example of 
that, within the existing system, a good example of where there 
is waste and poor alignment is the mortgage interest deduction. 
You know, before the 2017 tax bill we spent about $200 billion 
as a country to help Americans, to subsidize Americans to buy 
or rent their homes, and the vast majority of that, three-
quarters of that, goes--went to subsidize higher-income people 
to be homeowners.
    And the mortgage interest deduction has been proven time 
and again to be a very regressive tax policy and not at all to 
actually subsidize or incentivize home ownership. What it does 
is incentivize current homeowners to take on bigger mortgages 
and buy bigger homes. And the tax bill did reduce the funding 
for the mortgage interest deduction down to about $30 billion, 
but 80 percent of that goes to the top 20 percent of earners in 
our country. So again, highly regressive and poorly aligned use 
of scarce Federal resources. We would propose that the mortgage 
interest deduction certainly be reformed or even eliminated, 
and that the funds that are utilized there today be redirected 
to housing programs that assist the lowest-income renters or 
people experiencing homelessness.
    Chairman Enzi. Thank you, and that expires my time. Senator 
Van Hollen.
    He is on the floor speaking so we will go to Senator Kaine.
    Senator Kaine. Well, Mr. Chair, thank you for doing this. 
For 17 years before I was in politics I was a fair housing 
attorney in Richmond. I worked a lot on housing issues, 
representing people that had been discriminated against, and 
then have worked in housing at the local, State, and Federal 
level, so I am really interested in this hearing.
    And I sort of have one question that is, I guess, primarily 
for Professor Olsen and then one question for Ms. Yentel. So to 
Professor Olsen, and a shout-out to UVA, your thought about 
simplification in the Housing Choice Voucher program. I am a 
strong supporter of that program.
    What fair housing lawyers find that is often a challenge 
with the Section 8 programs or housing voucher programs is that 
landlords of rental properties refuse to accept it. They are 
not allowed to refuse to rent to someone because of the color 
of their skin or gender or religion, but you are allowed to 
reject someone because of the kind of income that they put on 
the table. And so someone who wants to, frankly, discriminate 
on the grounds of race, knowing that many of these programs 
disproportionately are for minority families, say, ``Well, I 
would like to rent to you but we don't accept vouchers'' or 
``We don't accept Section 8.''
    And even if there is not a racial motive there, if you have 
a big expansion of a housing voucher program but landlords 
retain the ability to turn down people based on their source of 
income, if it is a voucher, if it is a social security 
disability check, then people who are in that situation have 
dramatically fewer housing options.
    So my question for you is, I am assuming your 
simplification proposal--if we took all of the housing programs 
and put it into housing vouchers--you would support a concept 
that I initially introduced with Senator Orrin Hatch, which 
would be to change the Federal Fair Housing Act to make any 
discrimination based on the type of income a violation of the 
Federal Fair Housing Act, so that people with vouchers could be 
treated equally to those who brought a paycheck or, you know, 
other forms of income that could be used for their housing. Am 
I correct in making that assumption?
    Mr. Olsen. I do not have a strong view about that. I did a 
little analysis of source-of-income law. So some States and 
localities have source-of-income laws----
    Senator Kaine. Yes.
    Mr. Olsen. --which you are talking about, and I guess you 
are proposing to make it a national law.
    Senator Kaine. Yes.
    Mr. Olsen. I looked at how the voucher utilization rate 
depended on source-of-income laws, and it did not have a big 
effect. And one thing to realize is the current voucher 
program, is operated throughout the country and most places do 
not have source-of-income laws. Half of the recipients are 
black. So the housing voucher program, even without additional 
source-of-income laws, certainly serves blacks heavily.
    Senator Kaine. And just in the discussions phase----
    Mr. Olsen. The only study I have read on source-of-income 
laws suggests they have a modest effect. So I would just say do 
not hope for too much on that.
    Senator Kaine. Right. I mean, and I think your point is 
right, that the American population is a certain percentage 
African American, probably somewhere between 12 and 20 percent. 
I do not know the precise number. But if 50 percent of those 
receiving housing voucher programs are African American then a 
landlord who might want to discriminate on the basis of race 
can say, ``Well, I am not going to accept vouchers,'' and that 
is allowed under current law in many jurisdictions, even though 
it has a disproportionate racial effect. And so I would hope 
that we might eliminate that.
    For Ms. Yentel, so here is a question I want to ask you 
about, to dig deeper into a point you made about Professor 
Olsen's point. If you and I reached a funding level for housing 
that we agreed at, that you agreed was sufficient to meet the 
national need, and then we converted every housing program, 
including mortgage interest deduction, into a housing voucher, 
so there was just a single program but adequately funded, if 
you accept my assumption, what would be the problem or 
challenge with a Federal housing policy that put that adequate 
funding into a single program of a Housing Choice voucher?
    Ms. Yentel. Well, there is no silver bullet solution to the 
housing crisis, right, and in some markets where there is a 
sufficient supply of apartments, and the main challenge is that 
people living in them cannot afford them, rental assistance is 
essential and very helpful to making people pay the rent and 
stay housed.
    There are, as you suggest, some challenges with the voucher 
program. It needs additional improvements. Source-of-income 
discrimination is a very real problem, and while ultimately 
voucher dollars get used, there is a lot of churning that 
happens where in some communities like in Los Angeles as many 
as 78 percent of renters with vouchers get turned away by 
landlords when trying to rent that apartment, due to source-of-
income discrimination. That voucher then gets turned back to 
the Public Housing Agencies (PHA) and given to another renter, 
who can use it, but the original renter is out of luck.
    So we do need source-of-income protections. We need changes 
to how the value and the worth of vouchers are set, by using 
small area Fair Market Rents (FMR) rather than existing fair 
market rents.
    But in other communities there are simply not enough 
apartments for everybody that lives in that community, and 
there we have to produce more affordable homes, and we have to 
produce them so that they are affordable to the lowest-income 
people, through programs like the National Housing Trust Fund 
or through deeply-targeted low-income housing tax credits. This 
combination of supply side solutions and demand side solutions 
is a better approach to the housing crisis than oversimplifying 
with just one solution.
    Senator Kaine. Thank you, Mr. Chair.
    Chairman Enzi. Thank you. From your question, though, I 
have another question. What if we were to change all the 
programs over to a voucher system? That would differ from what 
we have been doing, which is we provide developers with the 
money to build houses provided they allocate a certain 
percentage to low income. And then we pay off those buildings, 
and then we do not wind up with anything.
    I love the comments that we had about the need for 
maintenance and preservation. I think those do have to start 
early.
    But if we did change over to housing vouchers as a project-
based assistance, why do you favor a voucher-based system? How 
do you answer critics who claim this puts the users of the 
vouchers at the mercy of unscrupulous landlords, which is 
similar to the problem that you just raised? Does it concern 
any of you that after providing these dollars, the Federal 
Government does not actually own any physical assets? Does 
anybody want to comment on that?
    Mr. Olsen. Yes, I would like to comment on that.
    Chairman Enzi. Dr. Olsen.
    Mr. Olsen. First of all, I do not have any reason to 
believe that landlords are particularly unscrupulous, but 
whether they are scrupulous or not, I think that they cannot 
take advantage of voucher tenants. The people who take 
advantage of voucher tenants are the people who run subsidized 
housing projects, because if you are a tenant in a subsidized 
housing project and you leave, then you lose your subsidy.
    So the people who run subsidized housing projects have a 
captive audience, whereas if you have a voucher, and the total 
amount being paid in rent for that voucher is very high 
relative to how good the unit is, you can take the voucher, go 
to another unit that is better, and you will continue to pay 
the same rent. So you are not a captive audience.
    And on the issue of does it bother me that the government 
does not end up with physical assets, not a bit. I do not want 
the government to be owning housing projects any more than I 
want the government to be running farms or groceries in order 
to provide food assistance to low-income households. We have a 
program that has had government ownership of housing projects. 
It is called the Public Housing Program, and its performance 
has been terrible, and there is a lot of evidence on that.
    Chairman Enzi. Thank you. Anyone else want to comment on 
that?
    Ms. Yentel. I would, yes.
    Chairman Enzi. Ms. Yentel.
    Ms. Yentel. To the point of public housing, public housing 
has been drastically underfunded for decades. So to the extent 
that there has been any failure, it has been a failure on the 
part of Congress to live up to its commitment to make public 
housing decent, safe, and sanitary homes.
    And again, the Section 8 voucher program is a very 
successful, important program, and the point that Dr. Olsen 
raises about it being a mobile voucher is one of its strengths, 
for the reasons he suggested and also because it allows 
families to move to neighborhoods maybe that have better 
performing schools or more access to transportation or jobs, 
and not to lose their housing assistance when they do. So that 
is the strength of the voucher program.
    I just want to add to what I have already shared about the 
need for construction, and construction of homes affordable to 
lowest-income people is that the private market also does not 
meet the housing needs of certain populations, for example, 
very large families or people with disabilities who need 
accessible homes. And that is another place where programs like 
the National Housing Trust Fund, the Low-Income Housing Tax 
Credit, or public housing provide those kind of units that are 
needed by Americans, but not generally available in the private 
market.
    Chairman Enzi. Senator Kaine.
    Senator Kaine. Mr. Chair?
    Chairman Enzi. Mr. Kaine next and then Senator Scott.
    Senator Kaine. Mr. Chair, I just want to share a story. I 
completely embrace the need for simplification. I think this is 
a smart hearing to have. I also resonate with what Ms. Yentel 
said. We could do dramatic simplification. I think doing one 
program alone would be too simple.
    I would really like housing vouchers if we put a 
requirement that all landlords must accept all sources of 
income. Often a landlord will accept paycheck on a job that 
could be gone next week and not accept a Section 8 voucher, 
which is not going to be gone next week. So if we are going to 
have voucher programs I think we should have protection against 
source-of-income discrimination.
    But I do believe, and Ms. Yentel just mentioned this, the 
Low-Income Tax Credit program has been really valuable in 
producing housing for particular groups of people for whom 
there was not housing. Here is an example in Virginia. When I 
was lieutenant governor I was chair of the State's Housing 
Commission, and we, based on a number of analyses, became aware 
there was insufficient rental housing for people with 
disabilities. The design standards of the wider doors and lower 
cabinets--people were not building those. They were not 
building them.
    They were not discriminating against somebody trying to 
rent and saying, ``We will not rent to you because you are in a 
wheelchair.'' But if the door was not wide enough and the 
counters were not low, folks could not live there.
    So we approached our Housing Development Authority and said 
competition for these low-income tax credits is very high. 
Developers want to get them, because it helps them finance 
their projects. We will give extra points in such competition 
for any developer that proposes to have X percentage of their 
units designed to standards that would accommodate folks with 
disabilities.
    And we got a lot of grief from that from the development 
community, but the Housing Authority did embrace this, now 10 
or 15 years ago. And immediately all the developers knew that 
if they were going to win the competition they would have to 
produce accessible units, and they started to do it.
    And they learned something. Here is what they learned. 
Folks with disabilities who rented a unit that they liked were 
some of their most loyal tenants. If they found a unit that 
would work for them, they would not stay for a year and go 
somewhere else. They would stay year after year after year. 
Folks who had no disability who rented those units would have 
disabled friends or children who could visit or stay with them. 
Or when they got ill or they got elderly, suddenly that unit 
was sufficient for that chapter of their life, even if they 
would not have needed some of those modifications before.
    And many of the developers came up years later and said, 
``This was actually really, really smart. It was the right 
thing to do, and we adjusted our practices. And what we learned 
was this is a population we were not serving and now we are 
serving them, and we are doing well and doing good at the same 
time.''
    So I sort of resonate with Ms. Yentel on the point that 
going to one program would probably be too streamlined. I do 
think we have to put choices in the hands of individuals. The 
voucher program does that, if we can make some modifications 
and protections. But we also have to have rigorous studies and 
then try to incentivize the production of housing for 
particular populations that may be difficult to house.
    And, you know, I think there is probably some bipartisan 
support for, you know, both halves of what I just said. So this 
is helpful to hear these witnesses.
    Chairman Enzi. Senator Van Hollen?
    Senator Van Hollen. Thank you.
    Mr. Olsen. Senator Enzi, can I inject a remark here?
    Chairman Enzi. Yes. Please do. I am sorry. Dr. Olsen?
    Mr. Olsen. This is on the issue of which type of program 
serves large families better, and the answer is, among all the 
current programs, by far the Housing Choice Voucher Program 
serves larger families than any of the other programs. In fact, 
a lot of the people in the Housing Choice Voucher Program live 
in single-family units, which are especially good for large 
families, and that is not a characteristic of the other 
programs.
    Chairman Enzi. Thank you. Anyone else from the panel wish 
to comment on that?
    [No response.]
    Chairman Enzi. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and I want to 
thank the witnesses for their testimony. I apologize. I had to 
go up to the Senator floor on a motion that we have been 
working on.
    But like Senator Kaine I think that there are a number of 
good ideas that we should be able to explore as a Committee on 
a bipartisan basis. And with respect to the Housing Choice 
voucher, I am pleased to have teamed up with Senator Young on a 
bipartisan bill where we were successful in expanding the 
number of Housing Choice vouchers and also securing additional 
funding for those.
    Unfortunately, as I mentioned in my opening remarks, we 
have also seen proposed deep cuts to many of the other voucher 
programs, which the testimony has been clear are among the most 
efficient ways of delivering affordable housing.
    Given the situation we are facing right now, which the 
Chairman mentioned in his opening remarks as well as I did, 
with respect to the current COVID crisis and housing, Ms. 
Yentel, Bloomberg recently reported that institutional 
landlords have filed more than 900 eviction cases across eight 
metropolitan areas, from September 2 to September 8, even in 
the face of the CDC order. Can you comment a little bit on how 
much protection the CDC order will provide with respect to 
evictions? That is the first part of the question.
    And then the second part of the question is, as I mentioned 
in my opening statement, even if we are able to protect people 
from evictions in the short term, if we do not provide rental 
assistance that obviously just moves a huge problem down the 
road, and we believe up to 20 million Americans will be facing 
eviction when they are not able to make their balloon payments 
at the end of the period.
    So can you comment on both those parts, first the extent to 
which the CDC order provides eviction protection, and number 
two, the urgency of providing rental assistance, which, by the 
way, in a Banking Committee hearing the other day witnesses 
invited by both parties, Republicans and Democrats, agreed was 
essential.
    Ms. Yentel. It is essential, yes. Thank you for the 
questions, Senator.
    The previous Federal eviction moratorium under the CARES 
Act was limited. It protected about 30 percent of renters and 
it created some confusion, because renters had a difficult time 
of knowing whether their particular property was covered under 
the moratorium because it only covered certain federally backed 
or federally subsidized properties. And so during the CARES 
Act, despite many of our best efforts, there were some illegal 
evictions that went forward.
    The CDC eviction moratorium is much broader. It covers all 
eligible renters, in all properties across the country. But it, 
too, is creating a lot of confusion, because unlike the CARES 
Act, where the protection was automatic for renters who lived 
in covered properties, under the current CDC eviction 
moratorium renters need to take an action to receive the 
protection. So if they meet certain eligibility requirements 
they need to sign a declarative statement and give it to their 
landlord in order to receive that protection.
    What we are finding is that many renters do not know about 
the moratorium and they do not know about the actions that they 
need to take. So we are doing everything we can, and I am 
encouraging all policymakers at all levels to do everything you 
can, to make sure that your constituents and that all renters 
know about this protection and know what action they need to 
take in order to receive it.
    But another problem with the CDC moratorium is that judges 
are interpreting it differently. The moratorium itself is quite 
clear. It is pretty plain-spoken, and it is meant to be 
interpreted very broadly. I mean, the purpose of the CDC 
eviction moratorium, or the reasoning behind it, is that they 
found that increased evictions will lead to increased COVID-19. 
And so it is meant to be very broad. But some judges are 
interpreting it more narrowly, and for that we may need more 
action from the CDC to be clear on how it should be 
interpreted.
    And then the third problem, as you mentioned, is that there 
is increasing evidence that large corporate landlords are 
taking advantage of this moment of confusion and this moment 
when renters do not know what their rights are, and trying to 
rush through as many evictions through the courts as they can 
before renters become aware of their protections and take 
action to receive them, which is just reprehensible, and 
another reason why we need to make sure that renters have all 
the information that they need.
    But ultimately any eviction moratorium is a half measure. 
On its own it is not enough. Eventually those eviction 
moratoriums expire, and when they do they create a financial 
cliff for renters to fall off of, when back rent is owed and 
they are no more able to pay it then than they are now, or they 
were at the beginning of the pandemic. And during this 
moratorium rent is still due, and on December 31st, all of the 
rent will be due, plus the late fees and the penalties that 
landlords tag onto it.
    So it is essential that Congress pair a national eviction 
moratorium with emergency rental assistance, at least $100 
billion as you, as Senator Brown, and just about every Democrat 
in the Senate has supported and has already passed in the 
House. And as you say, there is growing bipartisan support for 
this. Now we need Congress and the White House to come together 
and actually act on it.
    And I will say, too, that the emergency rental assistance 
is essential not only to avoid saddling low-income renters with 
more debt than they can ever pay off, but small landlords are 
struggling and they are increasingly struggling as renters 
increasingly cannot pay the rent. They rely on rental income to 
pay their bills, to keep the lights on, to keep maintaining and 
operating their properties. And the last thing we want to do is 
end this crisis having lost some of our country's essential 
rental housing stock. And for those two reasons it is essential 
that Congress and the White House come to an agreement, pass a 
bill that includes at least $100 billion in emergency rental 
assistance.
    Chairman Enzi. Do either of our other two panelists want to 
comment on that?
    Senator Van Hollen. --a lot of those landlords have their 
own bills to pay too, and we need to work on both parts of 
that.
    Mr. Chairman, thank you. Thank you for holding the hearing.
    Chairman Enzi. Thank you. Do either of the other two 
panelists want to comment on that?
    Not appearing so I want to thank the witnesses for 
participating today. This concludes our roundtable. As 
information for all Senators, questions for the record are due 
by 12 p.m. tomorrow. Emailed copies of the questions are 
acceptable, due to our current conditions. Under our rules we 
do ask the witnesses to respond to the questions in 7 days. 
There is a lot of good information here. As staff gets that to 
the Senators who were not here, as well as those of us who were 
here, I am sure there will be additional questions. There seems 
to be more agreement on possibilities than I have had in other 
roundtables. So under the rules we do ask the witnesses to 
respond to questions in 7 days.
    And finally, I ask unanimous consent to enter into the 
record written statements from the Tax Foundation and the NRP 
Group. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Enzi. With no further business before the 
Committee, the roundtable is adjourned.

    [Whereupon, at 3:46 p.m., the hearing was adjourned.]

                 ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witnesses subsequent to the 
hearing:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
